<html>
<title> - DO NOT CALL: COMBATING ROBOCALLS AND CALLER ID SPOOFING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
        DO NOT CALL: COMBATING ROBOCALLS AND CALLER ID SPOOFING

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON DIGITAL COMMERCE AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2018

                               __________

                           Serial No. 115-123
                           
                           
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                    
 
 
 


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                         _________

              U.S. GOVERNMENT PUBLISHING OFFICE
                   
 31-614                WASHINGTON : 2019                             
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

        Subcommittee on Digital Commerce and Consumer Protection

                         ROBERT E. LATTA, Ohio
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
                                       Ranking Member
GREGG HARPER, Mississippi            BEN RAY LUJAN, New Mexico
  Vice Chairman                      YVETTE D. CLARKE, New York
FRED UPTON, Michigan                 TONY CARDENAS, California
MICHAEL C. BURGESS, Texas            DEBBIE DINGELL, Michigan
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
DAVID B. McKINLEY, West Virgina      JOSEPH P. KENNEDY, III, 
ADAM KINZINGER, Illinois                 Massachusetts
GUS M. BILIRAKIS, Florida            GENE GREEN, Texas
LARRY BUCSHON, Indiana               FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     1
    Prepared statement...........................................     3
Hon. Debbie Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     6
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................    72

                               Witnesses

Ethan Garr, Chief Product Officer, Robokiller....................     8
    Prepared statement...........................................    11
    Answers to submitted questions...............................    89
Aaron Foss, Founder, Nomorobo....................................    17
    Prepared statement...........................................    19
    Answers to submitted questions...............................    94
Maureen Mahoney, Policy Analyst, Consumers Union.................    22
    Prepared statement...........................................    24
Scott Hambuchen, Executive Vice President--Technology and 
  Solution Development, First Orion..............................    35
    Prepared statement...........................................    37
    Answers to submitted questions...............................    99

                           Submitted Material

Statement of multiple trade associations.........................    74
Statement of the Electronic Privacy Information Center...........    76
Statement of CTIA................................................    80
Statement of USTelecom...........................................    83
Statement of the U.S. Chamber Institute for Legal Reform.........    85


        DO NOT CALL: COMBATING ROBOCALLS AND CALLER ID SPOOFING

                              ----------                              


                         FRIDAY, APRIL 27, 2018

                  House of Representatives,
     Subcommittee on Digital Commerce and Consumer 
                                        Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:03 a.m., in 
room 2123, Rayburn House Office Building, Hon. Robert Latta, 
(chairman of the subcommittee) presiding.
    Present: Representatives Latta, Kinzinger, Lance, Guthrie, 
Bilirakis, Mullin, Costello, Duncan, Walden (ex officio), 
Schakowsky, Dingell, Matsui, Welch, Kennedy, Green, and Pallone 
(ex officio).
    Staff Present: Mike Bloomquist, Staff Director; Daniel 
Butler, Staff Assistant; Margaret Tucker Fogarty, Staff 
Assistant; Melissa Froelich, Chief Counsel, Digital Commerce 
and Consumer Protection; Adam Fromm, Director of Outreach and 
Coalitions; Ali Fulling, Legislative Clerk, Oversight and 
Investigations, Digital Commerce and Consumer Protection; Elena 
Hernandez, Press Secretary; Zach Hunter, Director of 
Communications; Paul Jackson, Professional Staff, Digital 
Commerce and Consumer Protection; Bijan Koohmaraie, Counsel, 
Digital Commerce and Consumer Protection; Drew McDowell, 
Executive Assistant; Hamlin Wade, Special Advisor, External 
Affairs; Greg Zerzan, Counsel, Digital Commerce and Consumer 
Protection; Michelle Ash, Minority Chief Counsel, Digital 
Commerce and Consumer Protection; Jeff Carroll, Minority Staff 
Director; Lisa Goldman, Minority Counsel; Jerry Leverich, 
Minority Counsel; Caroline Paris-Behr, Minority Policy Analyst; 
and Michelle Rusk, Minority FTC Detailee.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Well, good morning. I would like to call the 
Subcommittee on Digital Commerce and Consumer Protection to 
order. And the chair now recognizes himself for 5 minutes for 
an opening statement.
    Good morning again. We thank our witnesses for being here. 
We especially appreciate your patience and flexibility, 
adjusting your travel plans after the hearing was rescheduled 
from last week.
    We want to thank you for being here to help us explore the 
range of solutions and strategies available to consumers to 
combat the scourge of robocalls, caller ID spoofing, and 
telemarketing scams. It is critical that we help consumers 
understand their options when it comes to robocalls and 
spoofing.
    For example, consumers can download robocall-blocking apps 
for their mobile phones and contact their landline and wireless 
providers for call-blocking options.
    They can register their home or mobile phones with the 
national Do Not Call Registry, which protects their number from 
legitimate telemarketing calls they do not want to receive.
    And there are other commonsense strategies, like not 
answering your calls from unknown numbers and not following any 
prompts if you do not know who the call is from. For example, 
do not ``press 1 to take your name off this list.''
    Good options are available, but I think all of us, 
including industry, can and should do a better job of 
education, particularly with our seniors, to make sure that new 
scam ideas are stopped quickly.
    So what is a robocall? When the phone rings with an 
automated prerecorded telemarketing message, that is a 
robocall. They are a nuisance and they are illegal. Yet every 
day tens of thousands of American consumers report receiving a 
robocall. And I would like to just play a real quick 
``robocall'' from the IRS.
    [Audio recording played.]
    Mr. Latta. And that message goes on.
    A staggering 3.2 billion robocalls were placed nationwide 
in the month of March, according to one source, alone. InOhio's 
419 area code alone, my area code, nearly 12 million robocalls 
were placed. For every month in the past year robocalls made up 
the majority of Do Not Call Registry complaints at the Federal 
Trade Commission.
    As technology evolves allowing for a greater volume of 
robocalls, so are the tactics used to trick consumers into 
answering. In the past scammers would fake caller ID 
information to trick consumers into thinking their bank was 
calling or the phone number was unknown. Scammers are now 
deliberately falsifying caller ID information knowing I am 
likely to answer a phone call that appears to be local from my 
family, a doctor, or the church. Neighbor spoofing, as it is 
known, is a deliberate tactic behind unwanted calls and texts 
to both wireline and wireless phones.
    Robocalls and spoofing have the potential for real 
financial harm. Fraud from unwanted calls amounts to almost 
$9.5 billion annually, according to the FTC. It is not hard to 
see how scammers could use deceptive tactics to convince 
people, often senior citizens, to hand over their personal 
information or to purchase fraudulent goods and services.
    Take the IRS tax scam, for example. You get that unexpected 
phone message claiming to be from the IRS. The call might say 
you owe taxes that must be paid immediately with a credit card 
or a debit card. Scammers have been known to use the threat of 
a lawsuit or arrest by the police to convince victims to hand 
over bank account information.
    Consumers may also get out-of-the-blue calls offering to 
help them lower debt or interest rates or promising other 
limited-time deals. Senior citizens are often targets of 
elderly-specific roboscams relating to Medicare, healthcare, or 
funeral arrangements. But they are not the only ones who fall 
victim to these scams.
    Fortunately, American consumers have options and strategies 
to fight robocalls and caller ID spoofing and to protect 
themselves, which we will explore today with our witnesses.
    The technology and tactics used by scammers may change, but 
as subcommittee chairman, I remain focused on empowering 
consumers and keeping them safe from unfair, deceptive, and 
malicious practices.
    Again, I want to thank our witnesses for being here today.
    And with that I will yield back and recognize the 
gentlelady from Michigan for 5 minutes.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Good morning. We thank our witnesses for being here today. 
We especially appreciate your patience and flexibility 
adjusting your travel plans after this hearing was rescheduled 
from last week.
    Thank you for being here to help us explore the range of 
solutions and strategies available to consumers to combat the 
scourge of robocalls, caller ID spoofing, and telemarketing 
scams. It is critical that we help consumers understand their 
options when it comes to robocalls and spoofing.
    For example, consumers can download robocall-blocking apps 
for their mobile phones, or contact their landline and wireless 
providers for call-blocking options.
    They can register their home or mobile phones with the 
National Do Not Call Registry, which protects their number from 
legitimate telemarketing calls they do not want to receive.
    And there are common sense strategies like not answering 
calls from unknown numbers and not following any prompts if you 
do not know who the call is from-for example do not ``press 1 
to take your name off this list.''
    Good options are available, but I think all of us, 
including industry, can and should do a much better job of 
education, particularly with our seniors, to make sure that new 
scam ideas are stopped quickly.
    So what's a robocall? When the phone rings with an 
automated, pre-recorded telemarketing message that's a 
robocall. They're a nuisance, and they're illegal. Yet, every 
day tens of thousands of American consumers report receiving a 
robocall.
    A staggering 3.2 billion robocalls were placed nationwide 
in the month of March, according to one source. In Ohio's 419 
area code alone, my local area code, nearly 12 million 
robocalls were placed. For every month in the past year, 
robocalls made up the majority of Do Not Call Registry 
complaints at the Federal Trade Commission.
    As technology evolves allowing for a greater volume of 
robocalls, so are the tactics used to trick consumers into 
answering. In the past, scammers would fake caller ID 
information to trick consumers into thinking their bank was 
calling or the phone number was ``unknown.'' Scammers are now 
deliberately falsifying caller ID information knowing I'm 
likely to answer a phone call that appears to be local, from my 
family, doctor or church. ``Neighbor spoofing,'' as it's known, 
is a deliberate tactic behind unwanted calls and texts to both 
wireline and wireless phones.
    Robocalls and spoofing have the potential for real 
financial harm. Fraud from unwanted calls amounts to almost 
$9.5 billion annually, according to the FTC. It's not hard to 
see how scammers could use deceptive tactics to convince 
people--often senior citizens--to hand over their personal 
information or to purchase fraudulent goods and services.
    Take the IRS tax scam, for example: you get an unexpected 
phone message claiming to be from the IRS. The call might say 
you owe taxes that must be paid immediately with a credit card 
or debit card. Scammers have been known to use the threat of a 
lawsuit, or arrest by the police, to convince victims to hand 
over bank account information.
    Consumers may also get out-of-the blue calls offering to 
help lower debt or interest rates, or promising other ``limited 
time'' deals. Senior citizens are often targets of elderly-
specific robocall scams relating to Medicare, health care, or 
funeral arrangements. But they are not the only ones who fall 
victim to these scams.
    Fortunately, American consumers have options and strategies 
to fight robocalls and caller ID spoofing, and to protect 
themselves, which we will explore today with our witnesses.
    The technology and tactics used by scammers may change, but 
as subcommittee chairman I remain focused on empowering 
consumers and keeping them safe from unfair, deceptive, and 
malicious practices.
    Thank you again to our witnesses for being here today for 
this important discussion.

 OPENING STATEMENT OF HON. DEBBIE DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mrs. Dingell. Thank you, Mr. Chairman, and thank you for 
holding today's hearing on robocalls and spoofing.
    And thank you to the witnesses for being here today.
    Robocalls are a great annoyance for American families, 
especially American seniors. One third of the calls now are 
unwanted robocalls. Just in March, a record 3 billion robocalls 
were placed to American consumers, and about a quarter of those 
calls are scam calls.
    We are now at a point in my household when the hard line 
rings I tell my husband, ``Don't answer it.'' And he thought I 
didn't pay our taxes. He got pretty upset with me actually. It 
took me a while to convince him I had.
    I hear repeatedly from my constituents that they want these 
calls to stop. One constituent in Ann Arbor wrote:
    ``My landline and cell numbers are both on the Federal Do 
Not Call Registry. I checked. I am so angry about all the calls 
from offshore call banks telling me that my computer is broken 
or that I need help with medical insurance and my college 
loans.
    ``Exactly what does the Do Not Call list do? Not answering 
and letting someone call back isn't an option, as I have an 
elderly parent who does call. I am also not wanting to go to 
the expense of updating my phone system to get caller ID.''
    There were many more just like this, and to no one's 
surprise there wasn't one letter in support of robocalls.
    Democrats on the Energy and Commerce Committee have been 
listening to their constituents and we are taking action. This 
week Democrats are introducing three bills to help stop 
robocalls.
    Ranking Member Pallone introduced the Stopping Bad 
Robocalls Act, which would strengthen the Telephone Consumer 
Protection Act and help the FCC take action against 
robocallers.
    Congresswoman Eshoo introduced the HANGUP Act, which would 
require debt collectors contracted with the Federal Government 
to get consumers' permission before robocalling or auto dialing 
consumers.
    And last, but certainly not least, today we have released a 
discussion draft titled the CEASE Robocalls Act. This draft 
legislation would lift the common carrier exemption in the 
Federal Trade Commission Act so that the FTC can take action 
against these smaller Voice over Internet Protocol, otherwise 
called VoIP services, that are a huge player and heavily 
involved in illegal robocalls.
    I am looking forward to getting feedback from all of you 
today about the discussion draft.
    Today we will hear from witnesses about some of the 
exciting and promising tools available to consumers wishing to 
block robocalls. But consumers don't just need new tools. They 
need new protections.
    We have put forward commonsense ideas to stop Americans 
from being harassed by unwanted calls. I hope we can all work 
together to move this legislation forward and make progress on 
the issue because many of us are growing tired of having to 
leave their phones on silent.
    Thank you, Mr. Chairman, and I yield back my time.
    Mr. Latta. Thank you very much. The gentlelady yields back.
    The chair now recognizes the gentleman from Oregon, the 
chairman of the full committee, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman.
    I share the passion of the rest of the members here about 
these unwanted, unnecessary, and oftentimes fraudulent calls. I 
get them on my cell phone all the time. They appear to be 
coming from I think my home at times, they are that good 
anymore. And we have got to do something about this. And we 
have. I am going the talk about that in my opening statement 
here a bit.
    And then we appreciate our witnesses for being here.
    Robocalls and caller ID spoofing have exploded in recent 
years, 3 billion calls placed last month alone, they estimate. 
And we all get them. And they interrupt our dinners, they 
interrupt our family time, they interrupt meetings. They are 
real annoying, to say the least.
    At worst, they have the potential to scam and defraud both 
consumers, seniors, and others. According to the Department of 
Justice, scams targeting the elderly are increasing 
dramatically and fraudsters steal an estimated $3 billion from 
American seniors every year. It is now more important than ever 
to educate consumers on how to detect and avoid fraud stemming 
from these robocalls.
    The Federal Trade Commission and the Federal Communications 
Commission, as well as our committee, have taken steps to 
protect consumers from robocalls and spoofing. Both the FTC and 
the FCC operate consumer complaint Web sites and hotlines where 
consumers can report illegal telemarketing calls. Reporting can 
help the agencies crack down on illegal callers and improve the 
data they share with the industry players and 
telecommunications companies, who then develop solutions. The 
Federal Trade Commission also manages the Do Not Call Registry, 
where anyone can register their home or mobile phone for free.
    Here at the Committee we recently passed the RAY BAUM'S 
Act, which includes provisions directing the Federal 
Communications Commission to expand and clarify the prohibition 
on misleading or spoofed caller ID information. It also 
requires that they, in consultation with the Federal Trade 
Commission, create consumer education materials on how to avoid 
this type of spoofing. These provisions were signed into law by 
the President in March.
    This is just one of many steps in the right direction. But 
as communication technology continues to advance, so do the 
tools and tactics of these illegal telemarketers, and they use 
those tactics and tools to evade existing protections. So we 
have to stay ahead of them. So-called neighbor spoofing is one 
of the most effective new tactics. It is particularly hard to 
detect. Scammers use phone numbers with your area code and/or 
an area code nearby, and that gets your trust. Many consumers 
are likely to answer when it looks like the call could be 
coming from, let's say, their child's school, their local 
church, or their dentist's office.
    What do we need to do to stop these bad actors? As I said 
earlier, I, for one, am pretty sick and tired of them.
    We also finished up another tax season last week. IRS 
scammers are going after taxpayers as well. Using the internet 
and social media, fraudsters can convincingly portray IRS 
employees by naming a few identifying facts, like your home 
address or current city of residence.
    To avoid falling prey to these calls and others never give 
personal identifiable information over the phone. Government 
officials will never ask you for your bank account information 
or Social Security number over the phone. Consumers should hang 
up and then they should call the IRS office and check if it was 
a legitimate call.
    And the bad actors keep evolving. So we need to make sure 
that our consumers have what they need to stay ahead of them. 
There are a wide array of technical and marketplace solutions 
consumers can use to block, avoid, or otherwise protect 
themselves from robocalls or caller ID spoofing. There are now 
500 call-blocking apps for Android, Apple, and other devices. 
Many home phone providers offer the option to add robocall-
blocking functions to their service for free, and today, 
because of our witnesses, we will hear from some of these 
innovators.
    And again, we thank you for your work and your willingness 
to be here.
    I have found, too, if I just let it go to voicemail they 
never leave voicemail, and then I know it is just a spoof.
    So anyway, Mr. Chairman, I will yield back the balance of 
my time. Thanks for having this hearing.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning and thank you to our witnesses for being here 
today. Robocalls and caller ID spoofing have exploded in recent 
years, with over 3 billion calls placed last month alone. We 
all get them. Whether they're interrupting a family sitting 
down to dinner in Bend, or ringing during a meeting in 
Washington, everyone experiences the pervasive and invasive 
effects.
    At best, these calls are annoying. At worst, they have the 
potential to scam and defraud consumers, especially senior 
citizens. According to the Department of Justice, scams 
targeting the elderly are increasing dramatically, and 
fraudsters steal an estimated 3 billion dollars from American 
seniors each year. It is now more important than ever to 
educate consumers on how detect and avoid fraud stemming from 
robocalls.
    The Federal Trade Commission and Federal Communications 
Commission, as well as our own Committee, have taken steps to 
protect consumers from robocalls and spoofing. Both the FTC and 
FCC operate consumer complaint websites and hotlines where 
consumers can report illegal telemarketing calls. Reporting can 
help the agencies crack down on illegal callers and improve the 
data they share with industry players and telecommunications 
companies, who then develop solutions. The FTC also manages the 
National Do Not Call Registry, where anyone can register their 
home or mobile phone for free.
    Here at the Committee, we recently passed the RAY BAUM'S 
Act, which includes provisions directing the FCC to expand and 
clarify the prohibition on misleading or spoofed caller ID 
information. It also requires that they, in consultation with 
the FTC, create consumer education materials on how to avoid 
this type of spoofing. These provisions were signed into law by 
the president in March.
    This is just one of many steps in the right direction, but 
as communication technology continues to advance, so do the 
tools and tactics illegal telemarketers use to evade existing 
protections. So-called ``neighbor spoofing'' is one of the most 
effective new tactics, and it is particularly hard to detect. 
Scammers use phone numbers with your area code or an area code 
nearby to engender trust. Many consumers are likely to answer 
when it looks like the call could be coming from their child's 
school, their local church, or their dentist's office.
    We also finished up another tax season last week. IRS 
schemes are on the rise as scammers deceive individuals into 
giving up their personal or financial information. Using the 
internet and social media, fraudsters can convincingly portray 
IRS employees by naming a few identifying facts, like your home 
address or current city of residence. To avoid falling prey to 
these calls and others, never give personally identifiable 
information over the phone. Government officials will never ask 
for your bank account information or social security number 
over the phone. Consumers should hang up and call their local 
IRS office to check if the call they received was legitimate.
    The bad actors clearly keep evolving, and we need to make 
sure consumers stay one step ahead. There are a wide array of 
technical and marketplace solutions consumers can use to block, 
avoid, or otherwise protect themselves from robocalls and 
caller ID spoofing. There are now over 500 call blocking apps 
for Android, Apple, and other devices. Many home phone 
providers offer the option to add robocall blocking functions 
to their service for free. Today, we'll hear from a few of the 
innovators in robocall blocking and advanced caller ID 
technology on how to implement these strategies for both 
landline and mobile phones.
    There is no silver bullet to solve the problem of unwanted 
calls, but we owe it to our constituents to present all the 
options available. Improving education and awareness will be 
key to preventing consumer harm. I want to thank our witnesses 
again for being here today, and I look forward to this 
important discussion.

    Mr. Latta. Thank you very much. The gentleman yields back.
    The chair now recognizes the gentleman from Texas for 5 
minutes.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman. I will be brief. I just 
want to thank you and the ranking member for holding this 
hearing.
    This is one of the biggest complaints I get from senior 
citizens. And actually at my house, when I go back home after a 
week, I get calls saying the IRS is going to come over and I 
owe taxes. And I hear constituents complain about that, and I 
explain to them the IRS doesn't call you and tell you by phone. 
You will get a letter and keep in touch with us.
    The other frustration is that on my cell phone, I haven't 
applied for a loan for many years, but I keep getting texts 
saying: Your $250,000 loan has been approved. I thought about 
saying: Send it to me and I will go to Costa Rica or someplace.
    But it is frustrating to seniors, particularly if you are 
home all day, or young mothers who have children that they are 
worried about with all these kind of calls. So we need both the 
two agencies, the FCC and FTC, see what we can do. If they 
don't have the tools for it we need to do it.
    And I thank you for having the hearing.
    Mr. Latta. Well, thank you very much. The gentleman yields 
back.
    And that will conclude the member opening statements. The 
chair would like to remind members that, pursuant to committee 
rules, all members' opening statements will be made part of the 
record.
    And again, I want to thank all of our witnesses for being 
here with us today, taking the time to testify before the 
subcommittee. Today's witnesses will have the opportunity to 
give 5-minute opening statements followed by a round of 
questions from the members.
    Our witness panel for today's hearing includes Mr. Ethan 
Garr, the Chief Product Officer of RoboKiller; Mr. Aaron Foss, 
Founder of Nomorobo; Ms. Maureen Mahoney, the Policy Analyst at 
Consumers Union; and also, Mr. Scott Hambuchen, the Executive 
Vice President of Technology and Solution Development at First 
Orion.
    So again, we want to thank you very much for being here.
    And, Mr. Garr, you are recognized for 5 minutes. Thank you.

 STATEMENTS OF ETHAN GARR, CHIEF PRODUCT OFFICER, ROBOKILLER; 
AARON FOSS, FOUNDER, NOMOROBO; MAUREEN MAHONEY, POLICY ANALYST, 
     CONSUMERS UNION; AND SCOTT HAMBUCHEN, EXECUTIVE VICE 
  PRESIDENT--TECHNOLOGY AND SOLUTION DEVELOPMENT, FIRST ORION

                    STATEMENT OF ETHAN GARR

    Mr. Garr. I think we are going to begin with a clip.
    [Audio recording played.]
    Mr. Garr. Chairman Latta and members of the committee, I am 
Ethan Garr from RoboKiller, and what you just heard was one of 
our Answer Bots wasting a telemarketer's time.
    Answer Bots are the solution to the robocall epidemic, and 
on June 19, 2021, RoboKiller and our Answer Bots will have 
solved this problem. See, on that date, at our current 
trajectory, we will have 10 million users deploying hundreds of 
millions of our time-wasting Answer Bots.
    This will reduce spammers' revenue by more than 50 percent. 
That is enough of a disruption to their bottom line to put them 
out of business. We are attacking spammers where it hurts, in 
their wallets.
    RoboKiller answers the calls it blocks with these Answer 
Bots, and they are smart. They know how to press 1 to reach the 
human behind Rachel from Cardholder Services. They know how to 
turn the tables on spammers and waste their time instead of 
yours. This is time that they no longer have to scam and steal 
not just from our users, but from anyone else, as well. This 
problem has gotten worse despite call-blocking technologies, 
despite legislation and enforcement.
    But we are different. Our call-blocking competitors have 
approached this problem from the caller ID angle. But spoofing, 
caller ID blocking, and other tools limit the value of such 
approaches. It is a cat-and-mouse game that can really never be 
won. We are not interested in playing the game. We would rather 
steal the cheese that the spammers are after.
    The spammers' business model is based on making billions of 
calls, knowing that only a small percentage will get answered, 
and an even smaller percentage of those will connect human 
telemarketers with viable targets. They don't have to be 
surgical in their strikes. Robocalls let the most vulnerable in 
our society self-select themselves as victims.
    So a relatively small pool of humans, often on the other 
side of the world, are just waiting for their auto-dialed 
robocall systems to connect, waiting for someone's grandmother 
to press 1 and say ``Hello.'' But Answer Bots' inanimate 
identities cannot be stolen. Their invisible wallets can't be 
infiltrated. They can keep spammers wrapped up on calls for 
hours. And they are protecting you even if you don't have 
RoboKiller. Every minute our Answer Bots are engaging 
telemarketers is a minute they don't have to speak to someone 
else.
    Our competitors are helping their users, but they are also 
helping scammers. Telemarketers are happy to skip a well-
educated executive with a call-blocker app to get to the 
elderly grandmother who they know is more likely to fall victim 
to their scams. With Answer Bots our users are helping 
everyone.
    Unfortunately, you can't solve this problem with 
legislation alone. A three-man IRS scam operation in a seedy, 
nondescript room in another country isn't worried that the long 
arm of the American justice system is ever going to knock on 
their door. As it became cheaper and cheaper to make calls, the 
incentive to deploy more robocalls has increased exponentially, 
as did the incentive to ignore the laws.
    The Do Not Call Registry did exactly what it was supposed 
to do, but, unfortunately, not at all what people expected it 
to do. So stopping the tiny percentage of legal robocalls that 
fell under the Do Not Call list purview was almost no help to 
consumers who were expecting a panacea.
    Beyond the Do Not Call list the government's efforts have 
been well intentioned and well executed. They just don't have 
broad implications on the problem. Despite the FCC and FTC's 
well-publicized multimillion dollar enforcement actions, with 
that estimated $9.5 billion in yearly phone scam revenue these 
efforts are just not a real deterrent.
    No, the real solution to this problem is already in the app 
store, and it is called RoboKiller. And you can take pride in 
the fact that the government efforts have made this happen. We 
weren't in this fight until the FTC had the vision to look 
beyond legislation and enforcement towards innovation.
    When the FTC created the Robocalls: Humanity Strikes Back 
competition in 2015 they got us, TelTech, into this fight. We 
have been innovating for 14 years, helping consumers use 
technology to protect their privacy and security on their 
phones.
    From unmasking blocked calls with TrapCall, to recording 
calls with TapeACall, to helping people keep their numbers 
secure with SpoofCard, we have always been focused on giving 
people control of their phones.
    The robocall competition ignited our passion and is 
accomplishing your goals to help Americans end the robocall 
epidemic.
    We have already started to see the impact. When we heard a 
telemarketer say in an exasperated voice, ``Oh, no, everyone 
has got RoboKiller today,'' we knew we had turned the tide. 
When we heard another angrily yell at one of our Answer Bots, 
``Oh, which one are you, the guy with the baby, the guy on the 
movie set?'' then we knew we were winning the fight.
    From an adorable Southern belle to a guy dealing with a 
gazelle running around his apartment, our robots are hilarious, 
but just as important, they are effective.
    Earlier this week we were able to showcase RoboKiller and 
Answer Bots at the FTC and FCC's joint technology expo, and 
today we have the privilege of testifying in front of this 
subcommittee. If you want us to help you solve this problem, 
please do more of this. Help us get more attention so that we 
can speed up our growth.
    We are not worried about putting ourselves out of business 
by solving the problem. We have built a culture of innovation. 
So when the scammers start ringing doorbells after we have 
solved this problem we will have a solution for that, too.
    Answer Bots wasted more than 25,000 hours of human 
telemarketers' time last month. For 150,000 users that 
represented hundreds of thousands of blocked calls and the 
peace of mind that when their phone rang it wasn't a harassing 
call from a scammer. For thousands of other Americans who have 
yet to purchase RoboKiller, that was 25,000 hours where they, 
too, were protected from those otherwise engaged telemarketers.
    This robocall problem has grown into a true epidemic. Ever 
since I have been speaking, 2,700 unwanted calls are being made 
to American citizens every second. But it is over. RoboKiller 
and our Answer Bots are on the case.
    Thank you very much.
    [The prepared statement of Mr. Garr follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Latta. Thank you very much for your testimony today.
    And, Mr. Foss, you are recognized for 5 minutes. Thank you.

                    STATEMENT OF AARON FOSS

    Mr. Foss. Chairman Latta, Ranking Member Pallone, and 
members of the committee, thank you for giving me the 
opportunity to appear before you today.
    My name is Aaron Foss. I am the founder of Nomorobo and the 
winner of the FTC Robocall Challenge.
    And since launching in 2013, Nomorobo has stopped almost 
650 million robocalls from reaching American citizens. And 
while that number is huge, it is a mere drop in the bucket of 
this problem. According to our data, approximately 40 percent 
of all calls on a landline network are unwanted robocalls.
    So I am here today to give you a view from the trenches. 
And let me start off by telling you the good news. The same 
technology that created this problem, low-cost voice-over-IP 
service, is now being used to successfully stop it.
    In its first year Nomorobo stopped 15 million robocalls 
from reaching American consumers. That was in the entire first 
year. And we are now stopping double that amount every single 
month. Thirty million robocalls a month are being stopped by 
Nomorobo. And this is much better than the old solution of, 
``Only answer numbers that you recognize.''
    And when I first started this crusade carriers believed 
that FCC regulations prohibited them from blocking robocalls. 
But since the FCC clarified that those regulations do indeed 
allow robocall blocking, carriers have been quick to act. Today 
Nomorobo is supported by most of the major VoIP carriers in the 
United States and directly integrated with some of the largest.
    And mobile technology companies, like Apple and Google, 
have also done a great job in making their smartphone 
ecosystems robocall-blocker friendly. They now allow developers 
to create and distribute robocall-blocking apps to hundreds of 
millions of users. This wasn't always the case, especially when 
I started.
    And there used to be a lot of fear when it came to stopping 
robocalls. Many people thought that technology couldn't 
differentiate between good and bad robocalls. And Nomorobo 
proved this incorrect. The service is 97 percent effective, and 
our false positive rate is only one-tenth of 1 percent.
    So on the one hand I know that for over 1.6 million 
Nomorobo users we have solved their robocall problem once and 
for all. Their phones are now peaceful and quiet. And I wish I 
could stop my testimony right there and we could end the 
conversation right now.
    Unfortunately, I can't. It is a jungle out there, and the 
robocallers have started to use more advanced tricks and 
tactics. We have to continually stay one step ahead of the bad 
guys. Simple blacklists are no longer as effective in stopping 
robocalls as they once are.
    Last summer we noticed an explosion in neighbor spoofed 
calls. These are the calls where the robocall caller uses a 
fake number that looks very similar to the recipient's number. 
Last summer they used to represent less than 2 percent of all 
robocalls, but beginning in July of 2017 they represented 
almost 20 percent of all robocalls. That is a 10x increase.
    Now, luckily, technology like Nomorobo can quickly detect 
and stop new robocalling patterns like neighbor spoofing. And 
while the carriers are also working on a solution, verifying 
and certifying caller ID, it is still years away.
    Robocallers are flexible and quickly and continually change 
their tactics. The tools to fight them also have to be flexible 
and adaptable.
    We are at a very interesting point in the robocall battle. 
Technology has proven that it is the safe and effective 
solution in the fight. Regulators have cleared the path for 
carriers to roll out robocall-blocking solutions to their 
customers. Consumers have shown that they want these services, 
they trust these services, and are even willing to pay for 
these services.
    And robocall blocking is a virtuous cycle. The more people 
that use robocall blockers, the less effective robocalling 
becomes. The less effective robocalling becomes, the less 
robocalls are made. Everyone wins, except for the robocallers.
    And to close, I just want to remind everyone why we are 
solving this problem. This isn't just about stopping a minor 
annoyance. Robocalls present a significant threat, particularly 
to some of our most vulnerable citizens.
    I was reminded of this the other day when I received the 
following email. As everybody knows, my testimony is sworn so I 
am really not making this up.
    It said: ``My name is Phil. I just wanted you to know how 
thankful I am for your service. I have a bad brain injury and 
the calls I was getting fooled me. Thank you for offering the 
service for free. My income has been tough to manage, and 
adding an extra cost, even small, can add up each month.''
    I thank the committee for continuing to do everything in 
its power to make robocall-blocking solutions, like Nomorobo, 
available to all Americans.
    [The prepared statement of Mr. Foss follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Latta. Well, thank you for your testimony.
    And, Ms. Mahoney, you are recognized for 5 minutes.

                  STATEMENT OF MAUREEN MAHONEY

    Ms. Mahoney. Chairman Latta, members of the subcommittee, 
thank you for the opportunity to speak today. I work for 
Consumers Union, the advocacy division of Consumer Reports.
    Since 2015, in response to complaints from thousands of 
consumers who told us that robocalls were their top consumer 
complaint, we have conducted our End Robocalls campaign, which 
calls on the major phone companies to offer to all of their 
customers free, effective tools to block unwanted robocalls.
    Nearly three-quarters of a million people have signed this 
petition, and they have told us that they are overwhelmed by 
the harmful, abusive, and irritating robocalls that intrude on 
their privacy, take their money, and allow scams to enter their 
homes.
    Robocalls have reached epidemic proportions. Since 2006 the 
number of complaints to the FTC about violations of the Do Not 
Call list has exploded. And the volume of robocalls is on the 
rise, as well. Last month, 3 billion robocalls were placed to 
consumers in the United States.
    Unwanted calls undermine the quality of the phone service 
for which consumers pay dealer. For example, sometimes these 
robocalling campaigns relentlessly target certain consumers. 
One consumer told us that she received an estimated 100 calls 
in a single day, which blocked incoming and outgoing calls for 
significant periods of time. Others have told us that unwanted 
incoming robocalls have delayed them from calling a medical 
professional.
    And robocalls cost consumers money. Vulnerable consumers, 
such as the elderly, may be unduly susceptible to telemarketing 
pitches for products that they don't want or need. Scam calls 
like Rachel from Card Services also seek to separate consumers 
from their money fraudulently.
    Consumers with prepaid or limited-minute calling plans may 
end up paying for robocalls. And often consumers have to pay 
for call-blocking devices or services, which further push the 
costs of robocalls onto consumers.
    We appreciate the progress that the phone companies, the 
FCC, and the FTC have made thus far in addressing robocalls. 
For example, AT&T and T-Mobile have begun to offer free 
robocall-blocking tools to their customers. In addition, the 
FCC has approved new rules that give phone companies the leeway 
to immediately block certain clearly illegally spoofed calls 
that they see coming through their networks. They have also 
opened an inquiry into the development of caller ID 
authentication technology to address call spoofing. And the FTC 
has initiated a series of contests, as my copanelists well 
know, to encourage developers to create and innovate 
antirobocall technology.
    But more action is needed to fully address the robocall 
problem. The blocking under the FCC's new rules will not reach 
the vast majority of robocalls. Essential legal protections 
against robocalls under the Telephone Consumer Protection Act, 
or the TCPA, remain at risk. And enforcement efforts have not 
been enough to stop illegal robocalling. Therefore, we support 
the following additional reforms.
    First, the FCC should require providers to offer technology 
to identify and block spoofed and unwanted calls. Congress can 
assist by supporting the ROBOCOP Act, which would direct the 
FCC to develop rules to implement these technologies.
    Second, ensure that consumers have strong legal protections 
against unwanted calls. The D.C. Circuit Court of Appeals 
recently struck down portions of the FCC's 2015 rules covering 
the definition of an autodialer and the safe harbor for 
robocalls made to reassigned numbers. The FCC will likely open 
a proceeding to explore open issues related to the definition 
of an autodialer, and we urge them to implement rules that 
maintain important protections against unwanted robocalls so 
that consumers have a means of controlling or stopping them.
    Third, increase protections against unwanted debt 
collection calls. Congress should pass the HANGUP Act to remove 
the exemption placed in the TCPA for Federal debt collection 
robocalls. While the exemption should never have been passed in 
the first place, we urge the FCC to issue rules to implement 
the provision to provide clarity and to ensure that consumers 
have a way to limit and stop these calls.
    And finally, empower the FTC to counter illegal calls. 
Congress should allocate to the FTC greater resources for 
enforcement and the development of antirobocall technology. It 
should also remove the common carrier exemption in the FTC Act 
so that the FTC can directly call on phone service providers to 
be part of the solution.
    Thank you for your attention to this important consumer 
issue, and I look forward to addressing any questions you have.
    [The prepared statement of Ms. Mahoney follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Mr. Latta. Thank you.
    And, Mr. Hambuchen, you are recognized for 5 minutes.

                  STATEMENT OF SCOTT HAMBUCHEN

    Mr. Hambuchen. Chairman Latta, members of the subcommittee, 
thank you for giving me the opportunity to appear today. I am 
Scott Hambuchen, an executive with First Orion Corporation.
    Today consumers are being scammed out of hundreds of 
millions of dollars and are now conditioned to not answer the 
phone unless they know who is calling. This lack of trust in 
the voice channel must change.
    First Orion partners with carriers to offer their 
subscribers protection from scams and unwanted calls. First 
Orion also offers consumers mobile apps, such as PrivacyStar, 
to protect their cell phones from these calls. These offerings 
use sophisticated analytics to identify calls that are highly 
likely to be scams.
    First Orion analyzed over 34 billion calls this past year 
and labeled 3.5 billion of them Scam Likely, giving consumers a 
warning before they answer. In addition, consumers can opt in 
to blocking calls labeled Scam Likely so their phone never 
rings. In 2017 we blocked over 500 million of these calls for 
consumers.
    Most of the larger carriers have launched some form of scam 
protection. First Orion is the chosen provider for T-Mobile's 
groundbreaking offering last year, deploying our Scam Likely 
solution to over 58 million subscribers for free. We also know 
there are over 500 apps in the Google Play and Apple App Stores 
that are free or available for a small month monthly charge.
    Despite these efforts, we are still getting fraudulent and 
unwanted calls. The fraudsters are sophisticated, evolving 
their practices to avoid being labeled and blocked. They 
operate like a business and constantly change their tactics to 
appear legitimate.
    Scammers use methods that legitimate callers often use, 
such as prerecorded messages, automated robocalls, and altering 
their caller ID, commonly referred to as spoofing.
    Some robocalls are legitimate and wanted, such as automated 
notices from your child's school. And yet some scams are not 
robocalls. Both are still growing.
    Spoofing is no different. Legal spoofing by a national 
pharmacy chain letting customers know their prescription is 
ready and spoofing the number for the local pharmacy is 
helpful. However, neighbor spoofing, inserting a random number 
with the same area code and prefix as the called number to get 
a consumer to answer a scam call, is illegal and much harder to 
detect.
    Let me be clear. We are in an arms race, not a marathon 
with a finish line, at least until we make it unprofitable. Our 
approach provides consumers the best information available--who 
is calling and why--allowing consumers to decide if they should 
answer.
    We also allow consumers to block future calls from that 
number or call category. We offer more information, including a 
calling number, the company name if available, the call 
category, and the ability to file complaints that we send to 
the FTC.
    We take great care in applying labels using sophisticated 
algorithms based on calls we see, input from consumers, and 
many other sources of intelligence. No one piece of data ever 
generates a Scam Likely label.
    Our labeling methods are constantly evolving to respond to 
new threats. In response to neighbor spoofing, we have evolved 
our analytics to soon start identifying individual calls, not 
just the calling number, as Scam Likely. As a result, we expect 
the number of identified scam calls to rise from 12 percent 
today to 15 percent.
    Of course, any algorithmic approach has some errors. 
Reported cases of false positives are a fraction of 1 percent 
for us. So calling parties can easily fix an incorrect label, 
we launched CallTransparency.com, a website that provides 
legitimate callers the opportunity to register their numbers 
and avoid the Scam Likely tag.
    The FCC has wisely established a light touch regulatory 
regime that allows continued development of call labeling and 
blocking solutions, with the potential for profound consumer 
benefits. We also commend the multiyear FTC focus on these 
issues and their role with complex multiagency enforcement 
actions.
    Finally, we will continue working with call originators to 
further enhance our solutions, although we do oppose any 
regulation or industry efforts that may help scammers, such as 
call block indicator tones.
    To conclude, the one area where First Orion believes that 
industry and government can do more together is expanding 
consumer education about scam calls and what tools are 
available to them.
    Mr. Chairman, First Orion appreciates the opportunity to 
appear today. We are available to provide any additional 
information the committee may request. Thank you.
    [The prepared statement of Mr. Hambuchen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Latta. I want to thank all of our witnesses for being 
with us today. We really appreciate the information.
    And that will conclude our witness opening statements, and 
we will move on to the 5-minute questions from our members, and 
I will recognize myself for 5 minutes.
    Mr. Foss, since you won the FTC Robocall Challenge, what 
are the challenges your company has experienced in getting 
Nomorobo developed and installed on landline and mobile phones?
    Mr. Foss. So I think that the major challenge that we had 
has changed. So when we first started off it was absolutely the 
carrier integration problem. That seems to be thawing.
    What the major problem I think right now is, is on the 
customer, the consumer confusion side. I even hear this 
mentioned a lot now where people say to put your landline and 
your mobile number on the Do Not Call list.
    There is actually no point in putting your mobile number on 
the Do Not Call list. The way the TCPA is written, it is 
actually illegal to call mobile phones unless you have 
expressed written permission.
    So when I actually even hear things like, ``Well, you know, 
my number is on the Do Not Call list, why do I keep getting 
calls?'' or when people say, ``Well, put your mobile and your 
landline on the Do Not Call list,'' then what are you going to 
do there? I feel like it is very, very confusing right now.
    I think the biggest problem with the adoption of these 
things is that consumers don't really understand. If they 
understood that there were these technologies that are 
available, if they understood where the government steps in and 
know what it can do to help, I think that that would go a long 
way now.
    Mr. Latta. And going along with that then, where have you 
received support and encouragement in that mission to protect 
your consumers? Where has that support been?
    Mr. Foss. From the consumers themselves. And maybe it is 
just like an American trait. We have a great military. We have 
great police. And people still protect themselves in their own 
homes through various means. They have firearms. They have 
security systems. Americans do take protecting themselves as a 
responsibility.
    So I think that the easiest place that we have been able to 
find it, when consumers understand that they can go and protect 
themselves, that they don't have to rely on the government, 
that they don't have to rely on the carriers, that really 
empowers consumers to protect their lines.
    Mr. Latta. Thank you.
    Mr. Garr, as a winner yourself, can you share the 
challenges and support for the RoboKiller company's experience 
since the FTC contest?
    Mr. Garr. Sure. I also would say that we have gotten 
incredible support from consumers.
    People are really angry about this problem. My uncle calls 
me up probably once every 2 months and screams about the 
robocalls and telemarketers he is dealing with.
    Consumers are passionate about solving this problem. So we 
see, especially in ratings and reviews, that customers are 
really passionate about what we are doing. They want us to 
succeed and make their lives better.
    Certainly the challenges are that scammers are constantly 
working at this problem, too. So more randomness, new 
technologies, that is always a challenge.
    We are always getting a lot of support from the FTC and the 
FCC. Since we won the competition we are really fortunate to be 
really partnered with these agencies. Again, being invited to 
speak today, having the chance to go to the technology expo on 
Monday, these are really important to our growth.
    We really feel like we have a solution in RoboKiller and 
our Answer Bots that scales. The only way it scales is if we 
get the word out there, and being able to participate in things 
like this has really been a supportive part of the effort.
    Mr. Latta. Let me ask this, if I could ask everyone real 
quickly, because I don't have a lot of time. But what can be 
done to stimulate more technological solutions and marketplace 
innovations to help consumers fight back against robocalls and 
spoofing?
    Maybe, Mr. Hambuchen, we can start with you and just work 
back down real quick.
    Mr. Hambuchen. Thank you, Mr. Chairman.
    Well, we certainly think awareness with consumers is a big 
part of that. The more complaints they file, the more data we 
have, the more we will be able to combat this.
    As you know, our business, we look at labeling and giving 
consumers choice in blocking these calls, and so the more 
information we have, the more we can fight the scammers.
    Because what you have to realize is these scammers are very 
sophisticated. They are using data and technology today much 
like a marketer, a direct marketer would to target these 
individuals. And so to combat that we need more data, more 
sophistication, and more analytics deployed in the carrier 
networks to detect that.
    Mr. Latta. Ms. Mahoney, I have got about 40 seconds left.
    Ms. Mahoney. Thank you.
    We think the FCC should require the phone companies to 
implement advanced call-blocking technology. I think that will 
provide important incentives for perfecting and improving it. 
And we also commend the FTC for its efforts so far to spread 
this technology, and we think they should be allocated more 
funds to be able to continue these efforts.
    Mr. Latta. Thank you.
    Mr. Foss, I have 17 seconds.
    Mr. Foss. I will go with educate, education, making 
consumers aware of what is out there and showing them that it 
is a real solution.
    Mr. Latta. Thank you.
    Mr. Garr.
    Mr. Garr. In my very short time here, real time information 
is always useful. We can always use that to be more effective 
in deploying our Answer Bots for the consumers.
    Mr. Latta. Thank you very much.
    My time has expired, and I recognize the gentlelady from 
Michigan for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Ms. Mahoney, I would like to explore some of your testimony 
regarding the FTC's authority under the Telemarketing Sales 
Rule to stop these illegal robocalls.
    I am concerned by reports that there are a handful of small 
Voice over Internet Protocol, VoIP, services that are enabling 
these calls.
    During the Senate hearing on this same topic last week we 
learned that these small VoIP carriers openly advertise short-
duration calls, which is code for robocalls. They even offered 
to blend robocall traffic in with normal calls to avoid 
detection.
    Ms. Mahoney, are these VoIP services contributing to the 
proliferation of robocalls?
    Ms. Mahoney. Thank you for your question.
    Again, we commend the FTC for its work so far on the 
robocall issue, their enforcement efforts in particular. But we 
did learn last week from the Senate hearing that there are 
carriers wherein their primary line of business is to carry 
this fraudulent traffic.
    I think if the FTC had more authority to go after them, 
they could use their enforcement muscle to really help crack 
down on this illegal activity.
    Mrs. Dingell. Thank you.
    Do you think that going after the carriers that aid and 
abet illegal robocallers would help reduce the number of 
unwanted callers?
    Ms. Mahoney. I do.
    Mrs. Dingell. I certainly think that shutting these 
operations down would be an effective enforcement tactic, but 
when it comes to these unscrupulous VoIP carriers the FTC says 
its hands are tied because common carrier activities are exempt 
from the FTC Act.
    Today we are releasing a draft bill that would lift that 
exemption for FTC enforcement against illegal telemarketing and 
robocalls, something that the FTC has testified that they 
support in the past.
    Does Consumer Union support expanding the FTC's authority 
under the Telemarketing Sales Rule to reach common carriers?
    Ms. Mahoney. We do. We think this is a good idea and will 
help the FTC crack down on this illegal activity.
    Mrs. Dingell. In 1990 Congress passed the Do Not Call 
Registry after hearing numerous complaints about unwanted 
calls. That law worked for a while, but one quick glance at 
your call history shows it is clearly not working anymore, and 
all of you have testified making that clear, too, that we need 
to do something.
    Ms. Mahoney, do you agree that existing law is insufficient 
and more can be done here in Congress to help consumers rid 
themselves of these unwanted calls?
    Ms. Mahoney. Yes. We have long been calling on the phone 
companies to offer free, effective antirobocall blocking 
technology. We do think the FCC should require the phone 
companies to offer this technology so that all consumers are 
covered. For example, consumers with traditional landline 
phones do not have effective, free protections against these 
robocalls.
    So those are the important reforms that we would support.
    Mrs. Dingell. Thank you.
    And I yield back the remainder of my time, Mr. Chairman.
    Mr. Latta. Thank you very much. The gentlelady yields back.
    And the chair now recognizes the gentleman from Oregon, the 
chairman of the full committee, for 5 minutes.
    Mr. Walden. Thank you very much, Mr. Chairman.
    I was actually just trying to download one of your apps 
here. I am real ready to do this.
    Look, I think we are all really frustrated. We now know 
that the Do Not Call Registry isn't that effective because 
these people are operating illegally to begin with. We have 
been through TCPA issues. It is already illegal to robocall a 
cell phone.
    And it seems to me that technology holds the best promise 
here, because we can make some changes in statute probably, but 
at the end of the day isn't it really you all and your brain 
trust that are going to come up with the technology every day 
to try and stay ahead of the spoofers every day because they 
got people doing this, right?
    Do you want to address that? What is the best thing a 
consumer can do? And what should we do to get at this?
    Mr. Garr. We passionately believe that disruption of the 
telemarketers' business is the key to solving this problem. We 
believe that our Answer Bots, which wastes scammers time----
    Mr. Walden. Love it.
    Mr. Garr [continuing]. Can solve this problem.
    Yes, they are entertaining, yes, they are fun, yes, you can 
create your own. These are great things for consumers. But they 
serve a really important, valuable purpose. That, again, is 
time.
    Not just that our user is protected. If you are downloading 
RoboKiller right now, yes, you will be protected from that 
call, but the great thing is that somebody else is being 
protected at the same time because the calls that we are 
blocking and answering with our Answer Bots are wasting those 
spammers' time. And I am telling you, sometimes it is for 47 
minutes at a time.
    Mr. Walden. See, I really like that, because I want to get 
even with these people.
    I remember a decade or so ago when pop-up ads were the rage 
on the internet. Every time I would work on a Word document or 
something, you have these pop-up ads. I threatened to do a 
death penalty for pop-up ad people, because you couldn't get 
anything done. And now we are all getting interrupted with 
these calls.
    By the way, I have just downloaded your app. I may move 
down the table here. But I am going to be in the ``get even'' 
mode here real soon with these scammers.
    Mr. Garr. We are the ``get even'' guys.
    Mr. Walden. I like that a lot, because I think that is what 
you have to do, is create economic harm on them. Because it is 
hard to chase them around the globe, right?
    So when I get one of these calls, I have tried to like talk 
to them, and they are really sweet except they don't answer, it 
is a robovoice for a while. So what happens? Does somebody 
actually answer? And what are they really after, just my 
financial information?
    Mr. Garr. It really depends on the nature of the call. And, 
again, like what is really incredible is how effective they can 
be at reaching their victims.
    That IRS scam that was played at the beginning of this 
testimony, that particular robocall asks you to call back a 
specific phone number. That means when you call them back you 
are self-selecting yourself as a victim.
    They don't want people who have RoboKiller. They don't want 
people who have another product. They want to get past them and 
get to the human being.
    Mr. Walden. So they have a sweatshop caller center overseas 
most likely. Most of this is going on overseas, right?
    Mr. Garr. They are not a monolith. I speak to a lot of 
scammers. You would think it is full-time job for me.
    Mr. Walden. Is this your voice on one of these?
    Mr. Garr. The one we played was my voice, yes.
    We talk to a lot of these scammers. It is not one, there is 
not one image of them. It is three guys working together in 
disparate locations. It is a bullpen of 100 people.
    I ask them, ``How many people are in your room?'' And 
sometimes you get, ``Oh, there is just me. It is just me.'' And 
sometimes you can hear people in the background. Sometimes you 
can tell it is a big bullpen.
    Mr. Walden. Stunning they are not truthful to you.
    Mr. Garr. Yes, exactly. We really encourage consumers not 
to trust anything the spammers say or do. Don't press 1 to get 
off their list because why would you trust someone who is out 
to get you in the first place?
    Mr. Walden. Right. I was going to ask you that, because 
they do have, like, press 1 if you want off, you do this or 
that. Bottom line is you should just hang up, right, or, no, do 
your deal.
    Mr. Garr. Yes. If you have RoboKiller we will take care of 
it for you. But, yes, I think if you are going to engage never 
give out personal identifying information.
    Mr. Walden. And so when somebody is using, let's just say, 
your app, I am trying not to hawk one service over another 
here, but let's say they use your app. Is that counting against 
their phone minutes or anything like that? Our phone minutes, I 
mean the consumers.
    Mr. Garr. For our users? No.
    Mr. Walden. So it is not tying up my phone line?
    Mr. Garr. No, no, no. The call is being forwarded to us, 
and then we are answering that call. So the user is just 
getting a notification on their phone saying RoboKiller has 
blocked this call, that it is a spam call.
    Mr. Walden. And how do you know that it is not a real call?
    Mr. Garr. That is our special sauce. We are using a lot of 
tools. When we won the FTC's competition, we demonstrated how 
audio fingerprinting could be used to attack this problem. That 
is one of the tools we use, along with machine learning, lists 
that we find and build, using our own consumer's consumer 
information. As we grow we are building a larger and larger 
ecosystem to learn from.
    Mr. Walden. OK. My time has expired. But thank you all for 
the good work you are doing. This is what it is going to take. 
And I am all about getting even with these people.
    Thank you.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired.
    And the chair now recognizes the gentleman from Texas for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman, again, for holding this 
hearing.
    Ms. Mahoney, I appreciate the work Consumers Union does 
trying to make America aware of options they do have to 
protect. I am especially concerned about protecting those more 
vulnerable to fraud.
    Do you think the elderly specifically are likely to know 
about the apps and the technologies that exist to protect them 
from robocalls?
    Ms. Mahoney. We think more consumers should be made aware 
of some of the options that are out there. We would like to see 
consumers taking more advantage of them.
    Oftentimes elderly consumers do have traditional landline 
phones, and existing call-blocking solutions are not adequate 
for those types of phone service.
    So we would like to see more technologies that are 
available to them, as well as more education and awareness for 
these consumers to be able to take advantage of existing tools.
    Mr. Green. Several witnesses have mentioned that AT&T and 
T-Mobile have begun offering free robocall-blocking tools to at 
least to some of their customers, and I am glad to hear, 
especially since you also mentioned that some of the 
competitors only provide products that consumers have to pay 
for.
    How can we explain why only some of their customers have 
access to these tools and not all their customers?
    Ms. Mahoney. Thank you for your question.
    Again, we think that all consumers should have access to 
these tools, and we do think the FCC should require the phone 
companies to offer to all of their customers these tools.
    I think it is possible that phone companies in the short-
term do not see market incentives for providing these solutions 
to all of their customers. So that is why we would like to see 
more pressure on them to take action.
    Mr. Green. Mr. Hambuchen, in your testimony you mentioned 
there are over 400 apps available to consumers that offer 
robocall and spoofing protection. Since these apps are so 
widely available, what do you think are the biggest obstacles 
to better protection from robocalls for these consumers that 
are particularly vulnerable to scammers?
    Mr. Hambuchen. Thank you for your question, Congressman.
    One of the largest issues is that the scammers are very 
savvy, very technologically savvy, and so a lot of these apps 
work based off of just a list of numbers that are going to be 
blocked or identified. And so that takes time to compile that 
information.
    What the scammers have learned is that rotating that number 
or these neighbor spoofing-type solutions they can avoid those 
simple lists of numbers that should be blocked.
    And so part of what First Orion is doing is developing 
technology that allows us to rapidly look at all that 
information and instead of just looking at the number, looking 
at the characteristics of the incoming call and identifying 
that information so that, regardless of what number that 
scammer may call from, we can identify that information and 
block that call or label it as a scam.
    Mr. Green. Of these 500 apps that are available, what kinds 
of options are available to customers that don't have a 
smartphone?
    Mr. Hambuchen. Well, that is a tough one. Most of the apps 
are really for the Google Play Store for Android devices, the 
Apple App Store, which are iOS devices, maybe a handful for 
Windows smartphones. But for the feature phone you really have 
to rely on the carriers' in-network solution for any of that 
scam protection.
    Mr. Green. Thank you, Mr. Chairman. I yield back.
    Mr. Latta. Thank you. The gentleman yields back.
    The chair now recognizes the gentleman from Illinois, the 
vice chairman of the subcommittee.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And thank you all for being here. It is good to have you 
here on this really important issue.
    I just downloaded one of your apps, as well. And I have 
been getting calls all the time, and I just don't even answer 
my phone anymore. So I am eager to get a call and listen to the 
exchange if it happens.
    But all of you, I appreciate you being here, and we will 
start out with Mr. Hambuchen.
    What is it about the distributed--you answered a little bit 
of this, but I want to see if there is anything you missed out 
on that--what is it about the distributed interconnected nature 
of the internet that allows bad actors to provision cheap and 
easy robocalls over VoIP? What is it just about the nature of 
it, I guess.
    Mr. Hambuchen. Well, I think the distributed nature, what 
you just described, the internet is connected, right, all of it 
is connected.
    So what has happened is the cost for any company to be able 
to create and launch call campaigns off the internet connected 
to the carrier networks, the cost of that has come down so 
dramatically over the last couple of years it makes it very 
easy for scammers to launch millions of calls at very low cost. 
And it has also helped the legitimate businesses also reach 
their customers with legitimate services.
    So again, I think what we have got to do is find ways to 
look at that data, analyze that information, and apply it back 
into the carrier network.
    Mr. Kinzinger. Let me ask, so the internet itself obviously 
is old relatively, but it seems like these calls have been 
increasing really in the last few months, maybe the last year, 
exponentially. Did something change or did they just figure 
something out?
    Mr. Hambuchen. I think as the solutions are deployed and 
starting to stop some of the calls, so you have heard from all 
of us the number of calls that we have been able to block or 
deter, again, the scammers are able to increase their volume. 
So they are going to get their number of calls out there 
whatever it takes to hit their number of scams.
    Mr. Kinzinger. And to all the industry representatives, 
when a customer downloads your app, has your service added to 
their landline, what is their typical experience in the next 
few days and weeks, zero robocalls, 90 percent reduction?
    Mr. Garr, if you want to start.
    Mr. Garr. We expect our customers to see more than 90 
percent reduction in standard telemarketing calls.
    Mr. Kinzinger. That is awesome.
    Mr. Foss. We don't get any of the data back on the mobile 
side, there is a privacy issue over there, so I can't tell you 
the exact number.
    But what I will tell you is from the very moment that you 
install Nomorobo and if you go back to your recent call lists 
and we start labeling all those as robocallers, people will be 
like: Wow, I knew that that is what that was. So from the very, 
very moment they get a visceral feedback that it is working.
    Mr. Hambuchen. About 12 percent of the calls that come to 
our consumers are labeled Scam Likely.
    Mr. Kinzinger. OK.
    Mr. Foss, are you aware of robocallers spoofing the 
telephone numbers of fire department, EMS, police, sheriff, 
anything like that?
    Mr. Foss. Yes. So the spoofing known and good robocallers, 
even on our--like if there is something on a white list or 
something, does happen.
    According to our data it is very, very small, and that 
attack is actually relatively easy to prevent. So, for 
instance, with our blacklist solution, when an attack is 
actually going on, that number is on our blacklist. When the 
attack stops it can be rolled off.
    And as we get integrated with more and more carriers and 
things we can give those analytics back, and we can tell those 
public safety organizations: Hey, your numbers are being 
spoofed, switch on over to see it, something like that.
    One of the new techniques that literally just started this 
week, though, it actually happened, it was attacking some 
people in Texas and California and New York, and it was aimed 
at Chinese Americans.
    And they were using a variation on neighbor spoofing. They 
would call from a 212 09244 number, which is where the Chinese 
consulate was. The message was in Mandarin. And when we started 
detecting this we couldn't understand--because the messages, 
again, were all in Mandarin--we couldn't understand what was 
going on.
    When we looked at the analytics and we looked at the area 
codes and the exchanges that this robocaller was targeting, it 
was absolutely places with high Asian populations.
    One of the ones that popped up was Webster, Texas. Like, I 
don't understand. It was San Francisco, New York, those kinds 
of things, and then Webster, Texas. When you go and look at the 
demographic makeup of Webster, Texas, it is predominantly 
Asian.
    So these spoofing issues, yes, can they go and spoof real 
numbers like the Chinese consulate, like the public safety 
organizations? Yes.
    But more importantly, it is much more important to stop 
them as they are happening in real time, report that back. That 
is a solvable problem.
    Mr. Kinzinger. Thank you.
    Mr. Garr, in 10 seconds do you have anything to add to 
that?
    Mr. Garr. I would just say that generally the bigger 
spammers, the cruise scams and things like that, are not using 
these highly targeted attacks. It is less surgical. They don't 
need to do that.
    What they want to do is, again, they want to get past the 
people who are savvy enough to have call-blocking apps and 
services and get to the people who are vulnerable. So they just 
want to make more and more calls.
    And that is why we feel that time is such an important 
factor here. We have to be hitting them where it hurts, which 
is in their wallet, and their wallet is connected directly to 
time. And that is how Answer Bots fight that problem.
    Mr. Kinzinger. All right. Thank you all for being here.
    Mr. Chairman, I yield back.
    Mr. Latta. Thank you very much.
    The chair now recognizes the gentlelady from Illinois, the 
ranking member of the subcommittee, for 5 minutes.
    Ms. Schakowsky. Thank you.
    First, let me apologize. I had another meeting I had to be 
at, and so I am sorry that I didn't hear your testimony. I 
appreciate the written testimony that I have, though.
    And I have heard horror stories about debt collectors 
taking advantage of robocall technology, harassing consumers, 
often several calls a day to a single recipient, hundreds of 
calls a month, even after the recipient has asked that the 
calls stop.
    And, unfortunately, in 2015 Congress actually made it even 
easier for some debt collectors to harass consumers by allowing 
calls to be placed to a person's cell phone without the prior 
consent required for other robocalls.
    So let me ask Ms. Mahoney, can you elaborate for us on what 
you are hearing from consumers about harassment by debt 
collectors? And does debt collection make up a substantial 
portion of all robocalls?
    Ms. Mahoney. Thank you for your question.
    We have had a similar experience. We have heard from many 
consumers about unrelenting, harassing debt collection 
robocalls. And oftentimes they are intended for another person. 
It is very difficult to get these calls to stop because the 
caller does not believe that the consumer doesn't owe the debt.
    We heard from one consumer who is on a fixed income, has a 
limited-minute cell phone plan. She is constantly receiving 
unwanted debt collection robocalls that are intended for 
someone else and can't get them to stop. So she is very 
frustrated that she is essentially paying for these robocalls.
    And there are a couple of reasons why there are so many of 
these debt collection robocalls. I think there are strong 
incentives because of the inexpensive cost of sending out these 
messages for debt collectors to reach out to consumers.
    Also, as you note, exemption to the TCPA was slipped into 
the budget bill of 2015 that exempted debt collection robocalls 
made on behalf of the Federal Government. For example, to 
collect Federal student loan debt or tax debt.
    This was very unpopular when it passed. Nearly 200,000 
Consumers Union activists reached out to the FCC to ask them to 
implement strong rules in order to limit them.
    So we don't think this provision should have been passed in 
the first place. We do think it should be removed, for example, 
through the HANGUP Act.
    But in the meantime, the FCC has yet to finalize rules 
implementing this provision, and we do urge them to do so, so 
that there is some clarity around the issue and that consumers 
know how to stop these calls.
    Ms. Schakowsky. Thank you. I would agree with that. I don't 
see why any debt collector, even for a Federal-backed loan, 
should be given free rein to harass consumers.
    In 2016 the Federal Communications Commission voted to 
adopt protections that would have established guardrails on 
these calls to limit their abuse, but those rules never went 
into effect.
    So, Ms. Mahoney, can you explain the status of those rules? 
And do you support them being allowed to go into effect? Is 
that what you were referring to earlier? The FCC. OK.
    Ms. Mahoney. Right. Exactly.
    So in the summer of 2016, the FCC did issue strong rules 
that would limit the amount of these debt collection robocalls 
that would be allowed to be sent to consumers without their 
consent, and also provided them the opportunity to stop these 
calls if they wanted to. Without these rules, consumers 
wouldn't have the ability to do so.
    However, those rules went to the OMB before they could go 
into effect, and in January 2017 they were withdrawn from 
consideration by the FCC.
    Ms. Schakowsky. They were what?
    Ms. Mahoney. Withdrawn.
    Ms. Schakowsky. What did you say about consideration? They 
were dropped from?
    Ms. Mahoney. I believe they were withdrawn by the FCC.
    Ms. Schakowsky. Withdrawn. Oh, OK.
    So you testified the Consumers Union supports a bill that 
would once again require Federal debt collectors to comply with 
the same rules as any other robocaller. Congresswoman Anna 
Eshoo is reintroducing the HANGUP Act, which you referred to, 
here in the House.
    Until we pass legislation like the HANGUP Act, what are the 
minimum protections that you would want to see in place to stop 
abusive practices?
    Ms. Mahoney. Right. So until these rules are implemented, 
actually that provision does not go into effect. However, there 
is a lack of clarity around the issue, so we are concerned that 
consumers will still get these unwanted robocalls from Federal 
debt collectors.
    We would like to see rules issued in the meantime so that 
consumers have additional protections against them. We would 
like to see that provision reversed. And we would like 
consumers to have the opportunity to block all unwanted calls 
through the expansion of technology that is available to them 
to do so.
    Ms. Schakowsky. All right. Thank you. And I yield back.
    Mr. Latta. Thank you. The gentlelady yields back.
    The chair now recognizes the gentleman from Florida for 5 
minutes.
    Mr. Bilirakis. Thank you, Mr. Chair. Thank you for holding 
this hearing as well.
    And I thank the panel for their testimony. This is a very 
important issue. It affects our constituents.
    Mr. Garr, you mentioned that your technology does not--the 
constituent or the customer, the person does not have to answer 
the phone. In other words, it does not affect them, it doesn't 
interrupt them at all. In other words, they just see on the 
caller ID that a call was made and you interrupt the call. Is 
that correct?
    Mr. Garr. Yes, we block the call.
    Mr. Bilirakis. You block the call.
    Mr. Garr. And then answer it with our Answer Bots.
    Mr. Bilirakis. So no inconvenience for the constituent?
    Mr. Garr. No. And all we do is we show them a notification 
on their phone so that they know that a call was received and 
that we blocked it.
    Our job is to give users control of their phone. I think 
what you are all talking about when you say, ``I don't even 
pick up my phone anymore, you know, we unplugged our 
landline,'' when you hear those stories, people are saying they 
have lost control of their phone.
    Our job, what we are passionate about at TelTech with 
RoboKiller, is making sure people have control of their phone 
once again.
    Mr. Bilirakis. And that is so very important because a lot 
of times when you have an elderly parent you want to make sure 
you pick up the phone. You never know, it is an emergency, it 
could be. Even with a mobile phone, I see robocall, but I 
identify, I see the number, and I know it is somebody that I 
know. So a lot of times I will pick up the phone.
    Mr. Garr. Absolutely. One of our pioneering technologies is 
a product called TrapCall, which unmasks blocked calls, which 
is a problem that is still prevalent today, but was a huge deal 
8, 9 years ago, it was all over the news. When people were 
getting blocked calls, it was really important for them to know 
who was calling from behind those blocked calls.
    We wanted to find a way to give people back that control of 
their phone without disrupting their whole life, without 
changing the way they interact with their phones.
    Mr. Bilirakis. Yes. And for the rest of the panel, is that 
correct? All this other technology, which is great, and thank 
you for continuing to innovate until we solve this terrible 
problem. You are not interrupting the consumer in any way? In 
other words, the phone doesn't ring during dinner or during 
your favorite program, is that correct, as well?
    Mr. Foss. Correct. So on our landline product, the phone 
will ring once and then we answer it. It stops ringing, they 
will see the caller ID, so people can make sure that they know 
that it is working.
    On our mobile product, we give consumers the option, do 
they want to identify it as a robocall or just send it directly 
to voicemail. In that case, it is even one better. The only 
calls that come through are from people that you know or the 
calls that should happen.
    This is a story that literally just happened last month. My 
uncle wound up in the hospital unexpectedly. The ambulance had 
to come pick him up. And he called, and I didn't recognize the 
number. But I trust my product. I answered it. It turns out 
that he was in the hospital, and he told me what room he was. I 
had to go and pick up some stuff from his house for him.
    If I didn't answer unknown calls, I don't know what would 
have happened. And, ironically, when I went to pick up his----
    Mr. Bilirakis. That is a good example. That is my greatest 
fear.
    Mr. Foss. That is exactly right and it is really important. 
And, again, this is not a made-up story. And, no joke, when I 
went to pick up his stuff, he has an old flip phone, feature 
phone, it rang. And I figured it was one of his friends who was 
calling to find out what is going on. I answered it, and no 
exaggeration, it is, ``You have won a free cruise.''
    So on that point I was laughing because of all that was 
going on. But I am like, even I can't protect my uncle because 
he doesn't have the latest technology.
    So in one case the robocall blocking apps actually--I was 
immediately able to get in touch with the people that I care 
about that are having issues, and on the other hand, it was, 
wait, this same call, the same technology could have taken 
advantage of my uncle.
    Mr. Bilirakis. Anyone else want to comment on that?
    Mr. Hambuchen. Yes, Congressman, I will just add that at 
First Orion consumer choice is paramount. For our default 
solutions and carrier networks the labeling is what takes 
place.
    So you see the call with a label of Scam Likely or some 
other label, and then the consumer has the option to actually 
block any of these calls in the future so that their phone 
won't ring. And for non-Scam Likely tags, those things can 
actually be forwarded over to their voicemail so they don't 
miss a call if something did get blocked.
    Mr. Bilirakis. I have a question here. I know I am running 
out of time. Mr. Chairman, would you allow me to ask a 
question?
    Mr. Latta. Sure.
    Mr. Bilirakis. Why don't I submit it for the record.
    But I just want to make a statement. Our constituents 
should not have to deal with this. They should have the right 
to enjoy the privacy in their own home. They shouldn't even 
have to play defense, in my opinion. So we have to do something 
about this.
    But I appreciate what you are doing to protect our 
constituents.
    But this is an issue we hear about on a daily basis from 
family members. My dad was a member of this committee. He 
complains to me all the time about these robocalls, and he is 
right.
    So thank you very much for what you do.
    Thank you for holding the hearing, Mr. Chairman. And I will 
yield back and submit the question.
    Mr. Latta. Thank you. The gentlemen yields back.
    The chair now recognizes the gentleman from New Jersey, the 
ranking member of the full committee for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    I am glad to hear that industry groups have been working on 
technology to root out caller ID spoofing with a system that 
can verify a call's true origin, and the call authentication 
trust anchor has been in development for some time now.
    My questions are for Ms. Mahoney.
    Do you support creating a call authentication trust anchor 
so that consumers know who is really calling them?
    Ms. Mahoney. Thanks for your question.
    There is broad consensus that caller ID authentication can 
be an important step in order to address the problem of call 
spoofing.
    And as my copanelists have mentioned, call spoofing and 
neighbor spoofing have become increasingly concerning. They do 
make it difficult for many call-blocking technologies to 
function. They allow spoofers to hide detection, which makes 
enforcement difficult, and generally just makes the robocall 
problem worse.
    So caller ID authentication has been in development for 
many years. This is a technology that would allow the 
originating provider to confirm or validate the accuracy of the 
caller ID information so that that can be traced all along the 
call path.
    And we would like to see the phone companies be required to 
implement some form of caller ID authentication with a certain 
set of consumer-friendly standards. For example, it should be 
free. It should have the capability to block spoofed calls as 
well.
    Mr. Pallone. Well, in July of last year the FCC started a 
process to explore the creation of a call authentication trust 
anchor, but the effort seems to have stalled out.
    So today I am releasing a discussion draft of the Stopping 
Bad Robocalls Act, and one provision in my draft bill would set 
a 1-year deadline for the FCC to adopt rules to create such a 
trust anchor to ensure consumers know who is calling when they 
answer the phone.
    So, again, Ms. Mahoney, do I understand correctly that 
Consumers Union supports a deadline to get this call 
authentication program in place?
    Ms. Mahoney. Again, thank you for your efforts to help spur 
this technology. We would like to see the FCC issue rules and 
require the phone companies to implement this technology by a 
certain deadline.
    Mr. Pallone. Now, how would creating a call authentication 
system help put an end to bad actors masking their caller ID 
information or spoofing and preying on unsuspecting consumers, 
and seniors in particular?
    Ms. Mahoney. Well, since call spoofing has made it so 
difficult for call blocking, again, from enforcement efforts, 
and it tricks consumers into picking up their phone, cracking 
down on call spoofing would improve the functioning of call-
blocking tools and it would allow consumers to trust their 
caller identification information again.
    Mr. Pallone. Now, would an authentication system also make 
enforcement easier by helping track the source of illegal 
robocalls?
    Ms. Mahoney. Yes. That has been a focus of the phone 
companies in order to speed up this process. Since calls are 
routed through multiple carriers, it can be time consuming to 
track them down to their original location.
    The phone companies have been exploring things like trace 
back to speed this process. But caller ID authentication would 
overall speed up this process and make it much more effective.
    Mr. Pallone. Well, you mentioned in your testimony that 
because of a court ruling, the definition of autodialer is 
unclear. In the wake of that court case, do you generally 
support a clarification of that definition?
    Ms. Mahoney. Yes. The ball is in the FCC's court in order 
to clarify a definition of an autodialer that protects all 
consumers and the existing autodialers that are in use. But we 
appreciate any assistance in that.
    Mr. Pallone. And I have also heard that many consumers are 
plagued by robocalls they receive as a result of reassigned 
phone numbers.
    Do you support requiring the FCC to establish a nationwide 
database of consumer telephone numbers that have been 
reassigned to other consumers so we can help stop these 
annoying calls?
    Ms. Mahoney. Yes. We urge the FCC to implement regulations 
to create the reassigned number database, as proposed, in order 
to cut down on this problem of wrong number robocalls.
    Mr. Pallone. And the bill I released, I mentioned, 
addresses the issue with the definition of an autodialer and 
would require the FCC to establish a database of reassigned 
numbers.
    I know we have heard a lot about neighbor spoofing, but I 
recently heard from a constituent about something perhaps even 
more alarming. Instead of the first six digits looking like her 
phone number, so she would think it was a neighbor calling, the 
first six digits looked like a phone number of a relative that 
frequently calls.
    I don't know how the spoofing companies would know what 
calls are coming in, but if there is some sort of access to 
caller information, I think we should stop it.
    Do you have any thoughts on this report that I am 
mentioning?
    Ms. Mahoney. I have not personally heard from any consumers 
about this happening, but scammers are smart and they are 
constantly thinking of ways in order to trick consumers into 
handing over their money or personal information, so I wouldn't 
put it past them. And certainly we hear often about neighbor 
spoofing, in which the first six digits are spoofed.
    Mr. Pallone. All right. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Latta. Thank you. The gentleman yields back.
    The chair now recognizes the gentleman from South Carolina 
for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman. Thanks for this timely 
hearing.
    I got a Facebook post on my feed the other day from a 
constituent. She said this:
    ``I realize we deregulated cell phone marketing awhile 
back. Woo-hoo. But the Do Not Call options don't work.
    ``I am on a Do Not Call list,'' she said. ``I punched the 
number to take me off the list and they just call from another 
number, a number that, by the way, you can't call back. Yes, 
you can block, and I do, but the bots just call from another 
number.
    ``What kind of scam business thinks this works? I wouldn't 
in a million years get their extended warranty, health 
insurance, et cetera.''
    I, too, have been called just recently by the IRS. 
Apparently I was involved in some tax fraud, and if I didn't 
call them right away, I face jail time.
    I called them back, or I answered one of their calls, it 
came right in, I can't remember if I called back, whatever, 
because I wanted to know. I told them who I was. I told them 
that I was going to investigate whether they were legitimate. 
And I said, ``If you are a fraud, we will find out, and the 
authorities will knock on your door.''
    The guy offered to give me his badge number and to spell 
his name. He didn't do a very good job pronouncing his name and 
definitely couldn't spell it. He had to spell it per letter, A 
as in apple, that sort of thing. I never did get his name right 
because he didn't speak English very well.
    Then just this week I was called by the Social Security. 
They were out of Texas. But they called me and said that I was 
involved in Social Security fraud.
    For the people that are watching, the IRS does not call you 
and the Social Security Administration does not call your 
phone. They send you something in the mail and you call them.
    So I want all the people across America not to fall for 
this scam. But it raises an important issue that we are talking 
about today.
    And I want to ask you guys. Let's take a hypothetical 
scenario that a robocaller would get hold of a home security 
company that a consumer uses or a bank number even, a number 
that they would recognize, and they started using that.
    How would it work in your system if that happened, if they 
spoofed a legitimate number, not one of the cell phone 
exchanges from my area that I would recognize? ``Well, maybe 
that is somebody that I know and I don't have them in my 
contacts.'' They use a legitimate number that might be your 
local bank, and the consumer wouldn't complain about that 
number because they don't want to not have their bank call 
them, right? What would happen and how would that work?
    Mr. Garr. That is a great question. And I think it is 
really important when you think about call-blocking technology 
that it is just as important that you are removing numbers from 
the list as adding numbers to the list, and that is what we 
think we do really well.
    Our algorithms are working in real-time to understand 
patterns of calls. So what you are describing, if it happens, 
it is very unlikely that it is a single call coming from that 
number. It is multiple calls coming from the same number, even 
if they are spoofing a legitimate number.
    We see that spike because we have a large ecosystem of 
users, we have just on RoboKiller 164,000 users now, a large 
ecosystem of users potentially seeing that call. If we are 
seeing that call in real-time come in, we know that it is 
likely a scam, and we are able to prevent, block against that. 
So we are an able to adapt really quickly.
    And I think, going back to what you are saying, consumers 
should always remember when the phone rings, my grandfather's 
principle, which is honest people are always willing to put 
things in writing. So if you get a call and someone is asking 
you for personally identifying information, even a company you 
work with, ask yourself why, and say, ``You know what, if you 
want to ask me that question, send me a certified letter.''
    Scammers aren't going to take the time. Again, this is all 
about time. Scammers want to get past you, as a skeptic, and 
get to somebody they can target. They want to get to the 
vulnerability people.
    Mr. Duncan. And it is the seniors that are the most 
vulnerable in this. I really think there ought to be a public 
service commercial that runs on the TV during the time that 
seniors are watching to warn them that the IRS will never call 
you, don't give any of your personal information.
    We have done a lot. All of us have done messaging within 
our ability.
    Let me ask you this. Could they theoretically spoof the 
House of Representatives' number and put that in?
    Mr. Garr. Sure. Caller ID is not something that you should 
automatically trust or can automatically trust.
    But spoofing is a complicated issue. I don't know what 
phone system you use, but there is a very good chance that the 
phone system in this building spoofs calls. Spoofing is not a 
monolith. Spoofing is used for legitimate purposes all the 
time.
    Mr. Duncan. Spoofing is used for legitimate purposes all 
the time?
    Mr. Garr. Absolutely.
    Mr. Duncan. Give me an example. Give the committee an 
example of that.
    Mr. Garr. Sure. My stepfather is a veterinarian. When he 
has to call a client back at night for an emergency he spoofs 
his office number so that he is not giving away his personal 
home number or mobile number, and also so that his customer 
knows that it is him calling, it is his animal hospital 
calling.
    Lots of people use spoofing for legitimate purposes all the 
time. Again, it is not just a monolith, you can't look at it 
and say all spoofing is bad.
    Mr. Duncan. Just by the use of the word ``spoof'' tells me 
it is bad, that you have got to use that terminology.
    Mr. Garr. Yes, it has a terrible connotation.
    Look, I am not saying that robocallers aren't using it for 
illegitimate purposes and that is not a problem we need to work 
on. What I am saying is that spoofing is a tool, and people are 
using it for legitimate purposes all the time.
    Somebody used the example of your pharmacy calling you. 
When you see CVS calling you, it is always CVS. How do they do 
that calling from multiple CVSs? Probably using spoofing. I 
can't say that for 100 percent sure. But spoofing is used all 
the time to maintain a consistent----
    Mr. Duncan. Just that phrase, Mr. Chairman, that spoofing 
is used for legitimate purposes strikes me as odd.
    I know I am out of time. Thank you so much. I yield back.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired.
    The chair recognizes the gentleman from Kentucky for 5 
minutes.
    Mr. Guthrie. So to follow on that point he just made. So if 
one of us uses our personal cell and calls a constituent back 
and it shows up U.S. House of Representatives, our office 
number, that is spoofing, by definition?
    Mr. Garr. I think you are saying using your mobile number?
    Mr. Guthrie. Yes, using my own personal number and the 
office number shows up on their caller ID.
    Mr. Garr. What I was more saying is that if you are calling 
from an office number here and it says U.S. House of 
Representatives, there is probably, in a building this size, 
hundreds of different phone numbers, hundreds of different 
phone lines. The system, I think it is called the PBX, is using 
spoofing so that you maintain that unique number that the 
person on the outside sees on their caller ID.
    Mr. Guthrie. OK. I see what you are saying. All right. 
Thanks. I was just asking if that was an example.
    So I have a question for the technology companies 
addressing the issue head on. Mr. Foss and Mr. Garr and Mr. 
Hambuchen, do any of your companies approach the robocall 
problem by diverting calls to voicemail directly? And have 
provider's legitimate call originators or any regulators 
expressed concerns about that?
    Mr. Foss. I think you have touched on something very 
important. And the wording that we all use, again the spoof, 
the setting of the caller ID, when we say blocking or stopping, 
labeling those, I think it is really important, you have 
touched on something really important.
    On our product, on mobile, when we say block the call, that 
is shorthand for it goes directly to voicemail. One of the 
other representatives said, like, if you don't answer it, it is 
just like declining it and then they don't leave a message.
    That is incredibly safe because everybody misses calls all 
the time. Everybody is always kind of worried, ``Oh, are we 
going to miss it.'' Like, we just dump it to voicemail.
    On our mobile product, when we say that we block a call or 
stop a call, we actually prompt the user to type in a captcha. 
So it says, ``This phone is protected by Nomorobo, please type 
the number 3286.'' It picks a random number. And if they type 
it in, proving they are human, we let the call through.
    So it is really important to understand that blocking the 
call and making it disappear into the ether is not the right 
way to do it.
    But putting up a challenge, getting them over to voicemail 
and then allowing the user to go and check that or to add that 
to their contacts, that is really what we are talking about 
when we are talking about stopping the call. It is really 
important.
    Mr. Guthrie. OK. Any other answers from the other two of 
you?
    Mr. Hambuchen. Sure. At First Orion the approach we take is 
we are labeling calls with Scam Likely when we know it is a 
scam. We also have other labels, such as Telemarketer or 
Nuisance Likely, based on what we know about that number.
    As I mentioned, we think consumers should have choice. And 
so consumers can see the label for any of these calls, but can 
also have those calls what we would call blocked.
    Scam Likely calls, when we say blocked, they go away, they 
don't go to voicemail. All the other types of calls would go to 
voicemail. So if it was a telemarketer, a survey, account 
service, or some other type of label, those would go to your 
voicemail.
    Mr. Guthrie. OK.
    Mr. Garr. Yes, if I can just say, some originators have 
complained. But, again, our users are looking for control of 
their phones. It is their phones, not the originator's, not 
anyone else's.
    There is a difference between legal and illegal versus 
wanted and unwanted and our users are asking us to prevent 
unwanted calls. Just because a debt collector may be a legal 
telemarketer and just because a political robocall--and I 
understand why you guys may use them at times--may be a legal 
call, that doesn't mean that the consumers want to receive 
them. So it is really important that we give them the control 
to do that.
    But, again, we are forwarding the calls--we are answering 
the calls that we are blocking. That gives the users control 
over those calls to decide what to do with those calls after 
the fact. They can hear these Answer Bots.
    Mr. Guthrie. OK. Thank you, Mr. Garr. I will continue with 
you.
    What can be done to enhance consumer education from a 
parent's child who might be getting their very first 
smartphone, for a senior citizen with a traditional landline, 
and a mobile phone?
    Mr. Garr. Again, I think there are a couple things that you 
should always be teaching people about the use of their phones. 
One is that caller ID is not something you can trust out of 
hand. And when someone calls you, unless it is someone directly 
that you know, a really trusted source, there is no reason ever 
to give them your personally identifying information.
    Especially when they are using time to put pressure on you, 
that is the time to push back and say, ``If this is a 
legitimate call, if this is a legitimate request, put it in 
writing, I will be happy to answer you.''
    Like I said, my grandfather always said, honest people will 
always put things the writing, and I think that is a principle 
that we should always adhere to when we are thinking about this 
these calls.
    But, again, if you put something like RoboKiller on your 
phone and you get Answer Bots working for you, you are 
preventing these calls from ever even reaching you and you are 
protecting yourself and the people around you.
    Mr. Guthrie. OK. Thank you.
    And I am about out of time so I will yield back.
    Mr. Latta. Thank you very much. The gentleman yields back.
    The chair recognizes the gentleman from Oklahoma for 5 
minutes.
    Mr. Mullin. Thank you, Mr. Chairman.
    And thank you guys for taking the time on this day to just 
come and visit with us. We all know it is a problem. It is just 
unique to find individuals that are putting so much time to it.
    Used to be you could just get rid of your landline and that 
solved the issue. Now even my cell phone, as my colleagues have 
stated up here, their cell phones are being called now.
    So can you guys just elaborate, how effective are the Do 
Not Call lists from State to national? Are they even worth the 
time that we put them in place?
    Go ahead, Mr. Foss.
    Mr. Foss. So the Do No Call Registry was created back in 
the early 1990s with the TCPA, it was implemented in the early 
2000s. Think of the world back then. We didn't have cell 
phones. The Internet didn't exist.
    Mr. Mullin. We did, but they were bag phones.
    Mr. Foss. Exactly. Car phones, right.
    The world has changed. So at that time it was legitimate 
telemarketers and there was no way to tell them to stop. That 
made sense then as an opt-out mechanism. Legal robocallers, 
they will go and follow the rules.
    Today the robocallers don't follow the rules. Nobody is 
downloading the Do Not Call list. It is like having a Don't Rob 
Me list and that all the criminals have to go in. And, look, it 
hasn't kept up with the time.
    I personally think that we should clarify that everything 
is just opt-in. If you are calling somebody to sell them 
something, anything with money, to collect a debt or something, 
I just think you need to have express written permission. It 
would save a lot of this whole, the patchwork of regulations 
and rules and clarifications, and this law came in and this was 
taken and that, if you have to opt in.
    Mr. Mullin. But how could you opt-in, because I don't think 
anybody gave them their phone numbers to begin with.
    Mr. Foss. Correct.
    Mr. Mullin. So how would that system work? Because it is 
not enforceable the way that it is now. I don't think anybody 
opted in to begin with.
    Mr. Foss. Correct. If it was opt-in, and we could basically 
say, which is pretty much what we are trying to say right now, 
is that any of those types of calls are illegal, right, and 
therefore the----
    Mr. Mullin. My point is, is that if you are already on the 
Do Not Call list, it already is illegal, but it is not being 
enforced.
    Mr. Foss. If you are on the Do Not Call list and they call 
a landline, there are all these different kind of--the truth in 
this lies in the gray area, right?
    And then when the carriers, the different regulations and 
things, when it gets that one bad actor, and they say, well, 
common carrier, we don't have to--these criminals are always 
going to look for that one little sliver and go and run through 
there. And at best, it is going to take years to go and 
litigate.
    If those things were more, ``Did you have express written 
permission to call that person?'' OK, show it to me.
    Mr. Mullin. Even what you said earlier, though, you don't 
need more regulations, just what is put in place, you actually 
would. If you put in opt-in, you would have to have regulations 
that stated that you have to opt-in, but then the enforcement 
arm is still there. Well, the enforcement arm isn't working on 
the Do Not Call list.
    So explain to me how that would work, because we are all 
in. We would be all in on that. Do we need to give the FTC or 
the FCC more broad powers, more teeth? Is that how that works? 
Because you have got to have it--regulations have got to take 
place for even the opt-in process.
    Mr. Foss. So let me give you an exact example of this. They 
are always skirting around this.
    Mr. Mullin. We know they are skirting around.
    Ms. Foss. Right. What is an ATDS, what is an automated 
telephone dialing system? Now there are a lot of the debt 
collection companies, HCI, they will manually push a button, 
they will have somebody, which gets around all the TCPA laws.
    I don't even care if those calls are made with an automated 
dialer, I don't care if it is made from a computer, I don't 
care if it is somebody that is pushing that button, if you are 
trying to sell somebody, to scam somebody, to take some money, 
do something like that, yes, you should not be able to do that.
    And then I would think it would give more teeth to the FTC 
to go after these and the FCC would be able to give a lot less 
cover.
    Mr. Mullin. All that is great, but it still goes back to 
the same thing. It doesn't make any difference if it is not 
enforceable.
    Mr. Foss. Correct.
    Mr. Mullin. If someone else wants to jump in this. How 
would you enforce it?
    Ms. Mahoney. I do think it is important that consumers have 
legal protections against unwanted robocalls. Phone companies 
are reluctant to block so-called legal robocalls. So if 
consumers don't have these protections, they won't be able to 
take advantage of some of the blocking.
    Mr. Mullin. How would it be enforced? That is what I am 
trying to get to. Does anybody have an idea how this thing 
could be enforced, how Congress could help push that to the 
next level?
    Mr. Garr. Truthfully, I don't think a Do Not Call list is 
the solution.
    Mr. Mullin. I agree. Well, it is not working, obviously.
    Mr. Garr. I don't think it can. There is even a theory that 
the Do Not Call list actually empowers telemarketers, because 
if people get a call who are on the Do No Call list, they 
automatically by default think, ``Well, it must be legitimate, 
I am on the Do Not Call list. So I will answer this question.''
    So the telemarketers have this thought that, ``Hey, if I 
get someone on the Do Not Call list, they are an even better 
target.'' I don't think legislation alone is the solution.
    Mr. Mullin. Just technology.
    Mr. Garr. I think technology is the solution.
    Mr. Mullin. So that leads to my question, where I was 
trying to get to. So it is not regulation in your opinion, it 
is the private industry that is going to drive the end to 
robocalls essentially.
    Mr. Garr. We believe we are already doing it.
    Mr. Mullin. Do you agree?
    Mr. Hambuchen. Sure. I would just add one thing. I think 
you are right in terms of technology and innovation are what is 
going to solve the problem. And recently, over the last couple 
of months, the rules were clarified on enabling carriers to 
start blocking scam calls, unwanted nuisance calls for 
consumers.
    So allowing industry to start spurring innovation on top of 
that, I think you are going to see an explosion over the next 
couple of years of solutions to combat the problem.
    Mr. Mullin. Thank you. And I am out of time. Thank you so 
much, once again, for being here and taking the time.
    This is something, I feel like, that we are going to be 
relying more and more on private industry to drive and help 
solve this problem, which is typically what happens in our 
country to begin, which is great. The government's 
responsibility is to help you guys, you entrepreneurs, go out 
and thrive and create and solve problems or create opportunity.
    So thank you for doing what you are doing. Appreciate it.
    Mr. Latta. Thank you very much. And the gentleman's time 
has expired, and seeing no other members wishing to ask 
questions.
    I also want to thank our witnesses for today's hearing. It 
has been very, very informative. Because, again, it is an issue 
out there that we all hear about, and I tell you, as the 
gentleman from South Carolina that not only heard from the IRS, 
but the Social Security. But it is an issue and we hear it. And 
people say, ``What are we supposed to do?''
    And some people, I have heard, in our districts, they 
actually fall for it and they send the money in. And all of a 
sudden they find out they are $5,000, $10,000 out, and they 
don't have $5,000 or $10,000 to be out. So it is really 
important that the public is protected out there, and that is 
what we are here to do.
    So again, I want to thank you all for being here.
    But before we do conclude today, I want to also include the 
following documents to be submitted for the record by unanimous 
consent: a joint letter from multiple trade associations; a 
letter from the Electronic Privacy Information Center; a letter 
from CTIA; a letter from USTelecom; and a letter from the U.S. 
Chamber Institute for Legal Reform.
    [The information appears at the conclusion of the hearing.]
    Mr. Latta. Pursuant to committee rules, I remind members 
that they have 10 business days to submit additional questions 
for the record. And I ask that witnesses submit the response 
within 10 business days upon receipt of the questions.
    And without objection, the subcommittee will stand 
adjourned. Thank you very much for being here.
    [Whereupon, at 10:38 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Even in today's divisive climate, certain things still 
unite us as Americans. High on that list is our universal 
frustration with robocalls. They interrupt family dinners, 
evenings out, and even an occasional Congressional hearing. We 
might be tempted to ignore them, but when we check the caller 
ID, the number looks familiar. Is it our child's school, or the 
doctor's office, or a neighbor? Reluctantly, we pick up only to 
hear that we have won a free cruise, that Rachel from 
cardholder services can get us a better interest rate, or that 
a virus has been detected on our computer.
    An estimated 18 billion unwanted calls were placed in the 
U.S. last year. That is a 76 percent increase over the previous 
year. The nuisance is so great that people are disconnecting 
their landlines altogether. But these calls are much more than 
a nuisance. They cause enormous economic harm. In 2016, more 
than 22 million Americans lost a total of $9.5 billion in 
robocall scams-an average $430 per person. Some victims have 
been conned out of their entire life-savings.
    It is no surprise that unwanted telemarketing and robocalls 
top the consumer complaint list at both the Federal Trade 
Commission (FTC) and the Federal Communications Commission 
(FCC). Both agencies are taking action to stop them. But 
unfortunately, illegal robocalls are proliferating. Staggering 
profit margins mean that even large fines won't deter bad 
actors. For every dollar robocallers spend, they make as much 
as 20 dollars profit. That's a 2,000 percent profit margin.
    Moreover, we are caught in an escalating technology arms 
race. Voice Over Internet Protocol (VoIP) technology and 
autodialing enable law-breakers to place more calls at just a 
fraction of a cent per call from anywhere in the world. And 
sophisticated Caller ID spoofing tools have led to a dramatic 
rise in robocalls appearing to come from your area code and 
even similar phone number to yours. As law enforcement gets 
better at tracing robocalls back to their true point of origin, 
the scammers find new ways to mask their identity.
    Given this reality, it is clear that reactive policing, no 
matter how aggressive, is not enough. Consumers need better 
proactive tools to block robocalls.
    I understand the FTC and FCC are promoting the development 
of new tools, including at a joint technology expo earlier this 
week. And two of our witness are winners of past FTC contests 
to spur the creation of call-blocking apps. I look forward to 
hearing about those tools from our witnesses and from Consumers 
Union on any regulatory gaps we need to close or enforcement 
tools we should add to the federal arsenal.
    As a start, today I'm releasing a discussion draft of my 
Stopping Bad Robocalls Act. With this discussion draft, we 
begin the task of crafting serious legislation to address these 
annoying calls consumers face day in and day out.
    This discussion draft includes a number of common sense 
proposals to help protect consumers, and I'm interested in 
feedback as to how this draft can be refined and improved 
before introduction. Among other things, my discussion draft 
would put the teeth back into the Telephone Consumer Protection 
Act, enact strong consumer protections for allowed calls, give 
the FCC tough enforcement tools to use against robocallers, and 
require the FTC and FCC to work together to reduce unwanted 
calls by 50 percent annually year over year.
    I urge my colleagues to review this draft, and work with me 
to help stop these unwanted calls. Thank you.
                              ----------    
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              



                                 <all>
</pre></body></html>
